No. 20-1419
In the Supreme Court of the United States

 

 

REB RUSSELL, I,

Petitioners,
v.
STATE OF NEW JERSEY,
Respondent.

On Petition for a Writ of Certiorari
To the Superior Court of New Jersey, Appellate Division
CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I, Jeffrey Louis. Weinstein, a
member of the bar of this Court, hereby certify on this 15t day of July 2021 that the
Brief of Respondent in Opposition to the Petition for Writ of Certiorari in the above-

captioned case contains 2,702 words, excluding the parts of the document that are

exempted by Supreme Court Rule 33.1(d). A L

rey Louis Weinstein

  
